           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 UNPROCESSED MANUAL RECALCULATIONS
        FOR TITLE II PAYMENTS

     August 2008   A-03-07-17090




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      August 14, 2008                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Unprocessed Manual Recalculations for Title II Payments (A-03-07-17090)


           OBJECTIVE

           To determine whether the Social Security Administration (SSA) (1) adjusted Title II
           benefits when earnings were removed from beneficiaries’ earnings records and
           (2) calculated and assessed over/underpayments when appropriate.

           BACKGROUND
           SSA pays benefits to qualified retired and disabled workers and their dependents as
                                                                                             1
           well as to survivors of insured workers under Title II of the Social Security Act. As part
           of administering this program, SSA is responsible for maintaining accurate individual
           earnings records in the Master Earnings File (MEF). 2 Those earnings records are used
           to determine eligibility for benefits as well as to calculate benefit amounts. 3

           When the Agency learns—from individuals or through its own processes—an earnings
           record may be incorrect, an SSA employee with authority to make initial determinations
           regarding wage evidence reviews the evidence. If the evidence is sufficient, the
           employee takes corrective actions to change the earnings record. 4

           SSA will recalculate benefit amounts when reopening a previous computation to change
           computation factors or to include or exclude additional earnings in the base year period.
           The previous computation must be reopened within the timeframe allowed by



           1
               The Social Security Act § 201, et seq., 42 United States Code (U.S.C.) § 401, et seq.
           2
            The MEF contains all earnings data reported by employers and self-employed individuals. The data are
           used to determine eligibility for and the amount of Social Security benefits.
           3
               The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A).
           4
               SSA, Program Operations Manual System (POMS), RS 01405.005.
Page 2 - The Commissioner

administrative finality. 5 This recalculation—effective the same month as the original
computation—may change the amount of benefits the numberholder receives. 6

Benefit recalculations based on new earnings are initiated through SSA’s Automatic
Earnings Reappraisal Operation (AERO) system, which is an automated process that
screens earnings records that have changes in earnings information and computes the
necessary changes. AERO adjusts benefits when earnings are added to a beneficiary’s
earnings record and notifies the beneficiary. However, when earnings are removed,
AERO generates an alert 7 for the appropriate SSA office to review the beneficiary’s
records and manually adjust the Primary Insurance Amount (PIA) and benefit amount
as needed. 8 (See Appendix B for more information on the AERO process.)

METHODOLOGY
To perform this review, we obtained a file of all Title II beneficiaries from 1 of 20 Social
Security number (SSN) segments 9 who were receiving benefits as of November 2006
and had wages removed from the earnings record for Tax Years (TY) 2003 through
2005. The removed wages resulted in zero total wages for those years. From this file,
we selected a random sample of 133 beneficiaries and analyzed earnings records,
benefit records, and AERO alerts. We referred the cases to SSA to determine whether
benefits were adjusted appropriately after wages were removed from the beneficiaries’
earnings records (see Appendices C and D for more information on our audit scope,
methodology, and estimation results).




5
  Administrative finality is the term SSA uses to describe the discretionary rules under which the Agency
revises previously issued monthly payments. In general, the Agency will revise initial determinations
regarding monthly Title II payments within 12 months for any reason, within 4 years for good cause, or at
any time if fraud or similar fault exists (see SSA, POMS, GN 04001.010). According to SSA, the purpose
of administrative finality is to (1) ease the administration of the program and (2) allow the public to be able
to rely on the Agency’s decisions (see SSA, Administrative Message AM-04020, February 3, 2004).
6
    SSA POMS, RS 00605.401, B.2.
7
 AERO generates an alert if the earnings meet a certain dollar threshold and if the removal of the
earnings are processed within the timeframe allowed by administrative finality.
8
  The PIA is the figure used to determine most cash benefit amounts—including monthly benefits as a
worker and benefits for dependents and survivors. The PIA is based on taxable earnings averaged over
the number of years worked.
9
 The last two digits of the SSN are randomly assigned and can contain digits “00” to “99.” These SSNs
can be categorized into 20 segments, each containing groups of 5 digits. For this audit, we selected
SSNs ending with the digits “40” to “44.”
Page 3 - The Commissioner

RESULTS OF REVIEW
We estimate that SSA did not adjust Title II benefits or assess over/underpayments
when earnings were removed from 5,440 beneficiaries’ earnings records—resulting in
about $5 million in improper payments. The Agency was not aware of the need to
review the benefit amounts for approximately 5,020 of these beneficiaries. Also, we
estimate about 4,660 of these beneficiaries will be paid an additional $1.2 million,
annually, because their ongoing benefits were not corrected when SSA removed the
earnings.

SAMPLE RESULTS

Of the 133 beneficiaries in our samples:
•    34 (26 percent) were
     overpaid approximately                        Sample Results - Beneficiaries with
     $130,238 because SSA did                             Earnings Removed
     not recalculate benefit
                                             Benefits adjusted appropriately—99 Cases (74%)
     amounts or assess
     overpayments when earnings
     were removed from their
     earnings records. 10 Because
     the Agency took action on
     the cases we referred, SSA
     saved an additional $34,602
     over 12 months by correcting
     benefit amounts for 30 of
     these 34 beneficiaries.
•    99 (74 percent) did have
     their benefits adjusted and      Benefits not adjusted appropriately—34 Cases (26%)
     overpayments assessed, as
     needed, when earnings were
     removed from their earnings records or no benefit adjustment was necessary.

In a few cases, other individuals used the beneficiary’s SSN—either erroneously or
through identity theft—which caused wages earned by another individual to be used in
the computation of benefits. Some examples are as follows.


10
  These 34 beneficiaries (and auxiliaries—such as spouses or children—receiving benefits on their
records) were paid incorrectly for about 38 months, on average—ranging from 9 to 59 months. Of these
beneficiaries, 33 were overpaid $131,978 and 1 was underpaid $1,740—for a net overpayment totaling
$130,238. To be conservative in our estimate, we did not include the entire amount of two very large
overpayments for beneficiaries in two of our populations. SSA assessed overpayments of $21,623 and
$5,630—substantially more than the next highest overpayment amount in their respective populations.
Therefore, we removed these overpayment amounts—and associated future savings—when we
estimated the overpayments and savings in the populations.
Page 4 - The Commissioner

•   A 32-year old man began receiving disability benefits in 2003 because of a spinal
    cord injury that left him wheelchair-bound. Someone else began using his SSN, and
    wages were posted to his earnings record in 2003, 2004, and 2005. SSA used the
    earnings to compute his benefits. In May 2006, the beneficiary informed SSA that
    he did not work in those years, and the Agency removed the earnings from his
    record. AERO generated an alert in October 2006 for this case to be reviewed and
    have the benefits adjusted. As of September 2007, the alert was still pending, and
    we asked SSA to complete the review. SSA determined this beneficiary was
    overpaid $18,864, and three auxiliary beneficiaries on his record were overpaid
    $12,945. If SSA had not adjusted the benefits, these individuals would have been
    overpaid an additional $5,256 over the next 12 months.

•   A 34-year old man living in Puerto Rico had been receiving disability benefits since
    1999. Since then, wages were posted to his record from restaurant and retail jobs in
    Massachusetts and Kansas. In 2005, he disclaimed all earnings posted after
    1999—stating that he had never worked in, or been to, the continental United
    States, and SSA removed the earnings from his record. Upon our referral, the
    Agency determined he was overpaid $11,191 because his benefits were not
    adjusted when the earnings were removed. Additionally, three auxiliary
    beneficiaries on his record were overpaid $10,432. If SSA had not adjusted the
    benefits, these individuals would have been overpaid an additional $11,796 over the
    next 12 months.

•   A 46-year old woman had received disability benefits for depression since 2002.
    When she and her husband filed a joint tax return for 2003, their tax preparer
    incorrectly filed earnings to the beneficiary’s SSN instead of her husband’s SSN.
    SSA moved the earnings to the correct record a few months later. Upon our
    referral, the Agency determined she had been overpaid $5,630. If SSA had not
    adjusted her benefits, she would have been overpaid an additional $1,584 over the
    next 12 months.

These cases show that SSA must be vigilant in adjusting beneficiaries records since
misrepresentation by third parties and identity theft have become common in our
society.
Page 5 - The Commissioner

CASES NOT ALWAYS IDENTIFIED FOR REVIEW
                                                                  We found that AERO did not
            Improperly Paid Sample Cases                          always select cases for review
                 Identified by AERO                               when earnings were removed
                                                                  from an individual’s record. Of
     Not Identified                                               the 34 sample cases that were
     22 Cases (65%)                                               paid improperly,
                                                                  •   AERO did not identify 22;
                                                                  •   AERO identified 8; and
                                                                  •   the AERO criteria did not
                                                                      apply in 4. 11

                                                       We spoke with staff in the
                                                       program service centers (PSC)
                                   Identified          and in Systems, and no one was
  Did not meet criteria                                able to determine why AERO
                                   8 Cases (24%)
  4 Cases (12%)
                                                       failed to identify the 22 cases for
                                                       review. If we had not asked the
Agency to review these records, the 22 beneficiaries (and auxiliary beneficiaries on
their records) would have continued to be paid improperly. Some examples are as
follows.

•     A man in Wisconsin—age 43—had been receiving Title II disability benefits and
      Supplemental Security Income (SSI) payments since January 2002 because of
      mental retardation. Another person worked in Minnesota—using the same name
      and SSN—in TYs 2003 through 2005, and those earnings were posted to the
      beneficiary’s record. The TY 2003 earnings were removed from his record in March
      2004; the TY 2004 earnings were removed in July 2005; and the TY 2005 earnings
      were removed in July 2006. AERO did not identify this case for review of the
      removed earnings, even though it had six opportunities between October 2004 and
      March 2007. 12 Upon our referral, SSA determined he had been overpaid
      $4,324 since January 2004 because his benefits had not been adjusted when
      earnings were removed from his record. If SSA had not adjusted the benefits, he
      would have been overpaid an additional $1,206 over the next 12 months.

      Additionally, SSA discovered that at least three individuals were using the same
      name and SSN for work and benefit purposes and referred the case to our Office of
      Investigations for possible fraud. The beneficiary did not cooperate with the local
      SSA office, which requested that he come in for an interview and provide proper
11
  Benefits were suspended for one case, and benefits for the other three cases were adjusted manually
before AERO could generate an alert.
12
   Since AERO is run twice for each earnings year—usually in October and in the following March, it failed
to identify this case for review in October 2004, March 2005, October 2005, March 2006, October 2006,
and March 2007.
Page 6 - The Commissioner

     identification and a birth certificate. In January 2008, SSA suspended his Title II
     benefits—and those for three auxiliary beneficiaries who began receiving benefits on
     his record in January 2007— and SSI payments while the case was being
     investigated.

•    A man in Florida—age 52—had been receiving disability benefits since August 1983
     because of schizophrenia. Earnings were posted to his record for 2004 and 2005.
     The 2004 earnings were removed in December 2005, and the 2005 earnings were
     removed in April 2006. AERO did not identify this case for review of the removed
     earnings, even though it had three opportunities to do so between March 2006 and
     March 2007. Upon our referral, SSA determined he had been overpaid $6,407
     since January 2005 because his benefits had not been adjusted when earnings
     were removed from his record. If SSA had not adjusted the benefits, he would have
     been overpaid an additional $2,412 over the next 12 months.

PROCESSING AERO WORKLOADS

Before Fiscal Year (FY) 2007, SSA’s workload goal for processing AERO workloads 13
was expressed as a percentage of new alerts generated during a specified year. As
shown in the following table, the Agency began adjusting the goal in FY 2007 to include
alerts not completed in prior years.

            Table 1: AERO National Workload Goals for FYs 2005 through 2008
     Year                                            Goal
     2005    Complete 57 percent of new alerts generated in 2005
     2006    Complete 58 percent of new alerts generated in 2006
             Complete 67 percent of the total of new alerts generated in 2007 and pre-2007
     2007
             alerts not completed
             Complete 100 percent of any unduplicated pre-2008 alerts and at least 50 percent
     2008
             of the new alerts generated in 2008.

According to SSA’s Systems staff, the Agency had over 593,000 pending items from
Calendar Years 2004 through 2007 that had not been completed as of February 2008
(see table below). SSA had processed approximately 43 percent of 2007 alerts, even
though alerts from prior years were still pending. Therefore, the Agency has not
prioritized working the oldest alerts first. If the pending cases are not completed within




13
  The AERO workload consists of documents to be filed, completely automated records, partially
automated records that need manual intervention or review, and exceptions that cannot be processed by
the system and have to be manually processed—for example, when the PIA should be lowered.
Depending on the circumstances for each record identified, the AERO action may increase, decrease, or
have no impact on benefits. (See Appendix B for more information on the AERO process.)
Page 7 - The Commissioner

the timeframe of administrative finality, SSA will be unable to assess improper
                                                                         14
payments resulting from benefits not being adjusted in a timely manner.

          Table 2: AERO Alerts Pending from Prior Years (as of February 2008)
         Calendar      Alerts pending         Alerts generated            Percent of alerts
           Year        from that year            in that year          pending from that year
            2004                      299               1,002,701                                 .03
            2005                    4,848                 822,664                                 .59
            2006                   56,535                 798,460                               7.08
            2007                 532,019                  928,218                              57.32
                                         15
          TOTAL                593,701                  3,552,043

According to staff from SSA’s PSCs, the Agency prioritizes AERO alerts for
beneficiaries who must be notified—within a specified timeframe—of a change affecting
                                                                                       16
their benefits. In addition, they prioritize alerts not processed from previous years.
However, it does not appear that SSA prioritizes some alerts, such as cases most likely
to be overpaid because of earnings being removed from beneficiaries’ records.

CONCLUSION AND RECOMMENDATIONS

Generally, SSA was effective in adjusting Title II payments when earnings were
removed from beneficiaries’ earnings records. However, the Agency did not identify
and adjust benefits for all beneficiaries with removed earnings. As a result, SSA
improperly paid about $5 million in benefit payments to beneficiaries who had wages
removed from the earnings record for TYs 2003 through 2005. If SSA does not take
steps to identify all cases that require adjustments and prioritize its workload to ensure
these cases are processed, the Agency will continue to overpay millions of dollars to
beneficiaries.




14
   In our September 2007 report, Administrative Finality in the Old-Age, Survivors and Disability Insurance
Program (A-01-07-27029), we estimated that SSA identified about 44,230 beneficiaries whose benefits
had been incorrectly calculated, but the Agency did not revise the amounts because of its administrative
finality rules. As a result, we estimated these individuals were paid about $140.5 million more in benefits
than they otherwise would have been paid had the errors not occurred. We also estimated about
25,801 of these beneficiaries will be paid an additional $49.8 million in the future because their ongoing
benefits were not corrected when the Agency identified the calculation errors.
15
     For comparison, SSA completed 637,740 AERO actions in 2007.
16
  According to SSA staff, the Agency is prioritizing unprocessed alerts from prior years so they can be
processed in the beginning of the next year.
Page 8 - The Commissioner

As such, to improve SSA’s effectiveness in this area, we recommend that SSA:

1. Review the remaining 944 cases (from the 1,077 we identified) to ensure benefits
   have been adjusted appropriately.
2. Ensure AERO identifies all cases that meet the criteria for manual review when
   earnings are removed from individuals’ earnings records.
3. Develop a cost-effective method for prioritizing the review of AERO alerts, ensuring
   that alerts most likely to result in overpayments are worked first.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. See Appendix E for the full text of SSA’s
comments.




                                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – The Automatic Earnings Reappraisal Operation

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
AERO     Automatic Earnings Reappraisal Operation
FY       Fiscal Year
MEF      Master Earnings File
OIG      Office of the Inspector General
PIA      Primary Insurance Amount
PSC      Program Service Center
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
TY       Tax Year
U.S.C.   United States Code
                                                                                Appendix B

The Automatic Earnings Reappraisal Operation
The Automatic Earnings Reappraisal Operation (AERO) is a computer operation that
reexamines an individual's earnings record each year to determine whether the
beneficiary is due a recomputation to include earnings not previously considered in the
Primary Insurance Amount (PIA). 1 If an increase is due, AERO processes a benefit
change and notifies the beneficiary. If no increase is due, AERO does not send a
notice. AERO is run twice for each earnings year, usually in late October and late
March. The checks reflecting the increases are issued in December and May. 2

When AERO processes cases, 3 exceptions may occur (such as wages being deleted
from the beneficiary’s earnings account) that preclude automated handling of the
recomputation. In those instances, staff in the program service centers processes the
AERO exceptions.

AERO’s principal objective is to ensure all creditable earnings are considered when
developing PIAs. These can be earnings before initial entitlement, which would most
likely apply to a recalculation of the initial PIA; earnings after initial entitlement, which
would apply to a recomputation of the initial (or subsequent) PIA; or additional earnings
reported for a year previously considered, which could apply either to a recalculation of
an initial PIA or to a recalculation of a previously recomputed PIA.

Several operating principles have been developed to ensure the principal objective is
attained.
1. Apply PIA increases and pay retroactive amounts as soon as possible after the
   qualifying earnings are posted.

2. Fully automate (no review required) as many of the PIA increases as possible.

3. Identify for review all records where the accuracy of the PIA computation or the
   payment record is questionable.



1
  The PIA is the figure used to determine most cash benefit amounts—including monthly benefits as a
worker and benefits for dependents and survivors. The PIA is based on taxable earnings averaged over
the number of years worked.
2
    SSA, Teleservice Center Operating Guide, TC 11001.110.
3
  The AERO workload consists of documents to be filed, completely automated records, partially
automated records that need manual intervention or review, and exceptions that cannot be processed by
the system and have to be manually processed—for example, when the PIA should be lowered.
Depending on the circumstances for each record identified, the AERO action may increase, decrease, or
have no impact on benefits.


                                                  B-1
4. Provide a means whereby those cases selected for review can be reentered into the
   “automated” process, provided certain criteria are met.

5. For those cases that cannot be processed automatically, provide as much
   computer-produced computation data as possible, thereby facilitating manual
   actions.

6. If full or partial automation is impossible, provide for clerical certification of an
   earnings record. 4




4
    SSA, Program Operations Manual System, OS 01201.490.


                                                B-2
                                                                        Appendix C

Scope and Methodology
To accomplish our objective, we:

   Reviewed related Social Security Administration (SSA) Office of the Inspector
    General reports and other related material to understand the issues and problems
    associated with over/underpayments and the recalculation of beneficiary amounts.

   Obtained and reviewed SSA policy and procedures for
    o removing earnings from an individual’s Master Earnings File (MEF);
    o recalculating benefits;
    o processing Automatic Earnings Reappraisal Operation (AERO) and Earnings
      Alerts;
    o applying rules of administrative finality; and
    o the amount of earnings required to earn a quarter of coverage in Tax Years 2003
      through 2005.

   Determined what offices were responsible for the AERO process and how often
    AERO is run during the year.

   Interviewed key AERO personnel to determine the procedures for processing AERO
    alerts and recalculating benefits and to obtain management information reports
    related to AERO alerts.

   Obtained a list of the AERO alerts generated for Tax Years 2003 through 2005 for
    each program service center and determined the status of each alert (that is,
    processed, backlogged, etc.).

   Obtained data extracts based on our criteria selection and selected sample cases
    (see Appendix D for our sample methodology).

   For each sampled case, we obtained data from SSA’s systems to determine
    characteristics of entitlement and details about the items removed from the earnings
    records.

   Referred all sampled cases to SSA to determine whether

    o AERO alerts were generated;
    o beneficiaries were receiving the correct benefit amount;
    o administrative finality prevented benefits from being adjusted.


                                            C-1
   Summarized sample results and made projections (see Appendix D for Sampling
    Results and Projections).

Our audit did not include an evaluation of SSA’s internal controls over the AERO
process. We determined the data used in our audit work were sufficiently reliable to
meet the audit objectives. We conducted our audit work from April 2007 to
February 2008 in Philadelphia, Pennsylvania. The SSA entities reviewed were the
Deputy Commissioner for Systems, Office of Retirement and Survivors Insurance
Systems and SSA’s program service centers, under the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.




                                         C-2
                                                                                     Appendix D

Sampling Methodology and Results
To perform our review, we obtained a file of Title II beneficiaries from 1 of 20 Social
Security number segments who were receiving benefits as of November 2006 and had
wages removed from the earnings record for Tax Years 2003 through 2005. From this
file, we identified 1,077 beneficiaries with removed earnings that

       resulted in zero total annual Federal Insurance Contribution Act earnings for that
        year and

       qualified the beneficiary with at least a quarter of coverage during the applicable
                   1
        tax years.

Of these 1,077 beneficiaries, we identified 3 populations:

       33 beneficiaries had a total of 151 wage items removed in all 3 years;

       187 beneficiaries had a total of 521 wage items removed in 2 years; and

       857 beneficiaries had a total of 997 wage items removed in 1 year.

We reviewed all 33 records in the first population, with wage items removed in all
3 years. From the other 2 populations, we selected a random sample of 50 cases—for
a total of 133 cases—and projected our sample results to each population. In addition,
we provided estimates to all 20 Social Security number segments.

Our sample results and estimations are detailed in the following tables: 2




1
 The required amount needed for a quarter of coverage in 2003 was $890; the required amount in 2004
was $900; and the required amount is 2005 was $920.
2
    The amounts in the tables are rounded to the nearest whole dollar. Any differences are due to rounding.
                                                    D-1
SAMPLE RESULTS AND PROJECTIONS—IMPROPER PAYMENTS

     Table 1: Sample Results and Projections—Improper Payments for
           33 Beneficiaries with Wages Removed in 3 Tax Years

                                                        Results in        Estimate to
                                                        1 Segment        20 Segments
     Population size                                             33                660
                                  Attribute Estimate
     Sample cases with improper payment                           8                160
     not previously identified
                                    Dollar Estimate
     Improper Payments not previously                     $72,913          $1,458,260
     identified

     Table 2: Sample Results and Projections—Improper Payments for
          187 Beneficiaries with Wages Removed in 2 Tax Years

                                                        Results in        Estimate to
                                                        1 Segment        20 Segments
     Population size                                           187                3740
     Sample size                                                 50
                                 Attribute Estimates
     Sample cases with improper payment                          11                220
     not previously identified
     Point estimate                                              41                820
     Estimate lower limit                                        27
     Estimate upper limit                                        60
                                   Dollar Estimates
     Improper payments not previously                     $29,872            $597,440
     identified
     Point estimate                                     $111,721           $2,234,420
     Estimate lower limit                                 $47,718
     Estimate upper limit                               $175,725
      Note: All projections were calculated at the 90-percent confidence level.



                                             D-2
Table 3: Sample Results and Projections—Improper Payments for
      857 Beneficiaries with Wages Removed in 1 Tax Year

                                                   Results in        Estimate to
                                                   1 Segment        20 Segments
Population size                                           857                 17,140
Sample size                                                 50
                            Attribute Estimates
Sample cases with improper payment                          13                  260
not previously identified
Point estimate                                            223                  4,460
Estimate lower limit                                      141
Estimate upper limit                                      323
                              Dollar Estimates
Improper payments not previously                       $3,680                $73,600
identified
Point estimate                                       $63,075          $1,261,500
Estimate lower limit                                 $23,720
Estimate upper limit                               $102,431
 Note: All projections were calculated at the 90-percent confidence level.




                                        D-3
  Table 4: Summary of Improper Payments for Beneficiaries with
                        Wages Removed

                                           Results in     Estimate to
                                           1 Segment     20 Segments
Population size                                  1,077       21,540
                          Attribute Estimate
Sample cases with improper payment                  8           160
not previously identified (from Table 1)
Point estimate—cases with improper                 41           820
payment not previously identified (from
Table 2)
Point estimate—cases with improper                223          4,460
payment not previously identified (from
Table 3)
TOTAL                                             272          5,440
                           Dollar Estimate
Improper Payments not previously               $72,913    $1,458,260
identified (from Table 1)
Point estimate—improper payments not         $111,721     $2,234,420
previously identified (from Table 2)
Point estimate—improper payments not           $63,075    $1,261,500
previously identified (from Table 3)
TOTAL                                        $247,709     $4,954,180




                                   D-4
SAMPLE RESULTS AND PROJECTIONS—SAVINGSS

          Table 5: Sample Results and Projections—Savings for 33
             Beneficiaries with Wages Removed in 3 Tax Years

                                                        Results in        Estimate to
                                                        1 Segment        20 Segments
     Population size                                             33                   660
                                  Attribute Estimate
     Sample cases with savings                                    7                   140
                                    Dollar Estimate
     Savings                                              $12,966            $259,320


           Table 6: Sample Results and Projections—Savings for
           187 Beneficiaries with Wages Removed in 2 Tax Years

                                                        Results in        Estimate to
                                                        1 Segment        20 Segments
     Population size                                           187                3740
     Sample size                                                 50
                                 Attribute Estimates
     Sample cases with savings                                   10                   200
     Point estimate                                              37                   740
     Estimate lower limit                                        24
     Estimate upper limit                                        56
                                   Dollar Estimates
     Savings                                               $6,912            $138,240
     Point estimate                                       $25,851            $517,020
     Estimate lower limit                                  $9,597
     Estimate upper limit                                 $42,105
          Note: All projections were calculated at the 90-percent confidence level.




                                             D-5
      Table 7: Sample Results and Projections—Savings for
      857 Beneficiaries with Wages Removed in 1 Tax Year



                                                   Results in        Estimate to
                                                   1 Segment        20 Segments

Population size                                           857              17,140
Sample size                                                 50
                            Attribute Estimates
Sample cases with savings                                   11                   220
Point estimate                                            189                3,780
Estimate lower limit                                      113
Estimate upper limit                                      286
                              Dollar Estimates
Savings                                               $1,344             $26,880
Point estimate                                       $23,036            $460,720
Estimate lower limit                                  $6,383
Estimate upper limit                                 $39,689
     Note: All projections were calculated at the 90-percent confidence level.




                                        D-6
         Table 8: Summary of Savings for Beneficiaries with Wages
                                Removed

                                              Results in      Estimate to
                                              1 Segment      20 Segments
     Population size                                 1,077       21,540
                              Attribute Estimate
     Sample cases with savings (from                    7           140
     Table 5)
     Point estimate—cases with savings                 37           740
     (from Table 6)
     Point estimate—cases with savings                189          3,780
     (from Table 7)
     TOTAL                                            233          4,660
                               Dollar Estimate
     Savings (from Table 5)                        $12,966     $259,320
     Point estimate—savings (from Table 6)         $25,851     $517,020
     Point estimate—savings (from Table 7)         $23,036     $460,720
     TOTAL                                         $61,853    $1,237,060

SAMPLE RESULTS AND PROJECTIONS—AERO DID NOT GENERATE ALERTS

         Table 9: Sample Results and Projections—AERO Did Not
     Generate Alerts for 33 Beneficiaries with Wages Removed in 3 Tax
                      Years and Were Paid Improperly

                                              Results in      Estimate to
                                              1 Segment      20 Segments
     Population size                                   33           660
                              Attribute Estimate
     Sample cases where improper payment                2            40
     not previously identified




                                       D-7
   Table 10: Sample Results and Projections—AERO Did Not
  Generate Alerts for 187 Beneficiaries with Wages Removed in
             2 Tax Years and Were Paid Improperly

                                                   Results in        Estimate to
                                                   1 Segment        20 Segments
Population size                                           187                 3740
Sample size                                                 50
                            Attribute Estimates
Sample cases where AERO did not                              7                 140
generate an alert for an improperly paid
beneficiary
Point estimate                                              26                 520
Estimate lower limit                                        15
Estimate upper limit                                        43
 Note: All projections were calculated at the 90-percent confidence level.


   Table 11: Sample Results and Projections—AERO Did Not
  Generate Alerts for 857 Beneficiaries with Wages Removed in
             1 Tax Year and Were Paid Improperly

                                                   Results in        Estimate to
                                                   1 Segment        20 Segments
Population size                                           857                17,140
Sample size                                                 50
                            Attribute Estimates
Sample cases where AERO did not                             13                 260
generate an alert for an improperly paid
beneficiary
Point estimate                                            223                 4,460
Estimate lower limit                                      141
Estimate upper limit                                      323
 Note: All projections were calculated at the 90-percent confidence level.




                                        D-8
  Table 12: Summary of Cases—AERO Did Not Generate Alerts

                                        Results in    Estimate to
                                        1 Segment    20 Segments
Population size                              1,077       21,540
                        Attribute Estimate
Sample cases with no alert generated            2            40
(from Table 9)
Point estimate—cases with no alert             26           520
generated (from Table 10)
Point estimate—cases with no alert            223          4,460
generated (from Table 11)
TOTAL                                         251          5,020




                                D-9
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 28, 2008                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster   /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Unprocessed Manual Recalculations for
           Title II Payments” (A-03-07-17090)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Your staff may direct inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“UNPROCESSED MANUAL RECALCULATIONS FOR TITLE II PAYMENTS”
(A-03-07-17090)

Thank you for the opportunity to review and provide comments on this draft report. It is
important to note that the Automatic Earnings Reappraisal Operation (AERO) selects cases for
processing based upon the date earnings changes post to the Master Earnings File, not the year
for which earnings changes take effect. Each cyclical AERO run looks at postings within a given
range of posting dates to determine if a recalculation or recomputation is necessary. It is possible
that AERO did not select some of the identified cases, because AERO did not yet look for
changes in the posting ranges involved.

Recommendation 1

Review the remaining 944 cases (from the 1,077 we identified) to ensure benefits have been
adjusted appropriately.

Comment

We agree. By January 1, 2009, we will complete our review of the remaining 944 cases to ensure
the adjustment to benefits was appropriately completed.

Recommendation 2

Ensure AERO identifies all cases that meet the criteria for manual review when earnings are
removed from individuals’ earnings records.

Comment

We agree. We utilized the records from the audit to try to duplicate the cited problems. Our
investigation included interaction with personnel from the General Utility Earnings
Summarization Tool area, which provides the earnings to the AERO process. We were unable to
identify any software errors in the AERO process. However, we will attempt to replicate the
problem scenario during the AERO validation cycle for the 2007 E AERO in October 2008. If
any software errors occur, we will evaluate the proper solution and make the necessary
changes/enhancements depending on available resources.

Recommendation 3

Develop a cost-effective method for prioritizing the review of AERO alerts, ensuring that alerts
most likely to result in overpayments are worked first.




                                                E-2
Comment

We agree. However, we will pursue this recommendation in accordance with, but not at the
expense of, working the oldest pending cases first. AERO alerts that result in overpayments are
in the backlog, because they do not meet the criteria for quick completion during the screening
operation. The payment centers already have many priority workloads that include critical cases,
administrative law judge cases, and award cases in which beneficiaries are waiting for benefits.
Other workloads, such as substantial gainful activity, workers' compensation, government
pension offset, and enforcement work or reports of earnings that are removed from the automated
process have delays in processing that result in higher overpayments. We believe that
prioritizing the review of AERO alerts will likely create delays in other priority workloads.
Therefore, we will evaluate our policy, resources, and systems capabilities to determine the
feasibility of implementing a cost-effective method of ensuring that we process the AERO alerts
most likely to result in overpayments before other similarly aged AERO alerts that are not likely
to result in overpayments.




                                              E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division, (215) 597-0572

   Carol Madonna, Audit Manager, (215) 597-1485

   Phillip Hanvy, Acting Audit Manager, (617) 565-1742

Acknowledgments

In addition to those named above:

   Walter Mingo, Auditor-in-Charge

   Richard Devers, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-07-17090.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
